VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                       Inspection of 

                                                                     VA Regional Office 

                                                                    New York, New York 





                                                                                    June 24, 2014
                                                                                     14-00383-171

             ACRONYMS AND ABBREVIATIONS


FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Inspection of VA
                   Regional Office New York, NY

Why We Did This Review                            VARO      managers     ensured     Systematic
                                                  Analyses of Operations were complete and
The Veterans Benefits Administration              timely. However, staff inaccurately processed
(VBA) has 56 VA Regional Offices                  and delayed completion of 14 of 30 rating
(VAROs) and a Veterans Service Center in          reduction claims we reviewed because
Cheyenne, Wyoming, that process disability        management did not prioritize this work.
claims and provide a range of services to
veterans. We evaluated the New York               What We Recommend
VARO to see how well it accomplishes this
mission.                                          We recommend the VARO Director develop
                                                  and implement the plans needed to ensure
What We Found                                     timely and appropriate action on reminder
                                                  notifications for medical reexaminations,
Overall, VARO staff did not accurately            appropriate action on the 320 temporary
process 27 (30 percent) of 90 disability          100 percent disability evaluations remaining
claims reviewed. We sampled claims we             from our inspection universe, accurate
considered at higher risk of processing           second-signature reviews of TBI claims,
errors, thus these results do not represent the   routing of higher-level SMC claims to a
overall accuracy of disability claims             specialized team for processing as required,
processing at this VARO.                Claims    and prioritization of benefits reduction actions
processing that lacks compliance with VBA         in order to minimize improper payments to
procedures can result in the risk of paying       veterans.
inaccurate and unnecessary financial
benefits.                                         Agency Comments
Thirteen of 30 temporary 100 percent              The New York VARO Director concurred
disability evaluations we reviewed were           with all recommendations. Management’s
inaccurate, generally because VARO staff          planned actions are responsive and we will
delayed ordering medical reexaminations on        follow up on all actions.
average for 9 months after receiving
reminder notifications.        VARO staff
incorrectly processed 8 of 30 traumatic brain
injury claims (TBI). Most of the errors
occurred because staff misinterpreted VBA
policy for rating a TBI with a coexisting
mental condition. Staff also incorrectly                     LINDA A. HALLIDAY
processed 6 of 30 claims related to special              Assistant Inspector General
monthly compensation (SMC) and ancillary                  for Audits and Evaluations
benefits. Generally, these errors occurred
because VARO staff did not follow VBA
policy to forward these complex claims to a
specialized team for evaluation.
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. Disability Claims Processing ..................................................................................................2
 

        Finding 1  New York VARO Could Improve Disability Claims Processing Accuracy ......2
 

                           Recommendations ...............................................................................................9
 

  II. Management Controls ...........................................................................................................11


        Finding 2          VARO Lacked Oversight To Ensure Immediate Action On Benefit 

                           Reductions .........................................................................................................12


                           Recommendation...............................................................................................13
 

Appendix A                 VARO Profile and Scope of Inspection ............................................................14
 

Appendix B                 Inspection Summary..........................................................................................16
 

Appendix C                 VARO Director’s Comments............................................................................17
 

Appendix D                 OIG Contact and Staff Acknowledgments........................................................20
 

Appendix E                 Report Distribution ...........................................................................................21
 
                                                                Inspection of VARO New York, NY



                    INTRODUCTION
Objective	          The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other                  Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the New York VARO Director’s comments on a
                       draft of this report.




VA Office of Inspector General                                                                1
                                                                            Inspection of VARO New York, NY



                      RESULTS AND RECOMMENDATIONS
                      I. Disability Claims Processing

Claims                The OIG Benefits Inspection team focused on accuracy in processing
Processing            temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy
                      claims, and special monthly compensation (SMC) and ancillary benefits. We
                      evaluated these claims processing issues and assessed their effect on
                      veterans’ benefits.

Finding 1 	           New York VARO Could Improve Disability Claims Processing
                      Accuracy

                      The New York VARO did not consistently process temporary 100 percent
                      disability evaluations, TBI-related cases, or entitlements to SMC and
                      ancillary benefits. Overall, VARO staff incorrectly processed 27 of the total
                      90 (30 percent) disability claims we sampled, resulting in 285 improper
                      monthly payments to 16 veterans totaling $195,331.

                      We sampled claims related only to specific conditions that we considered at
                      higher risk of processing errors. As a result, the errors identified do not
                      represent the universe of disability claims or the overall accuracy rate at this
                      VARO. The table below reflects the errors affecting, and those with the
                      potential to affect, veterans’ benefits processed at the New York VARO.

               Table 1. New York VARO Disability Claims Processing Accuracy
                                                     Claims                Claims
                                  Total           Inaccurately           Inaccurately           Total Claims
          Type of Claim           Claims         Processed that       Processed with the        Inaccurately
                                 Reviewed      Affected Veterans’     Potential To Affect        Processed
                                                    Benefits          Veterans’ Benefits
 Temporary 100 Percent
                                    30                   5                      8                  13
 Disability Evaluations
 TBI Claims                         30                   5                      3                   8
 SMC and Ancillary Benefits         30                   6                      0                   6
  Total                             90                 16                      11                  27
 Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at least 18 months, TBI
 disability claims completed in the fourth quarter fiscal year (FY) 2013, and SMC and ancillary benefits claims
 completed in FY 2013.




VA Office of Inspector General                                                                                    2
                                                                  Inspection of VARO New York, NY


Temporary           VARO staff incorrectly processed 13 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a veteran’s service-connected disability following
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, Veterans Service Center
                    (VSC) staff must input suspense diaries in VBA’s electronic system. A
                    suspense diary is a processing command that establishes a date when VSC
                    staff must schedule a medical reexamination. As a suspense diary matures,
                    the electronic system generates a reminder notification to alert VSC staff to
                    schedule the medical reexamination. VSC staff then have 30 days to process
                    the reminder notification by establishing an appropriate control to initiate
                    action.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA has increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed 5 of the 13 processing errors we
                    identified affected benefits and resulted in 51 improper monthly payments to
                    5 veterans totaling $49,540 from May 2011 until December 2013. Details on
                    the most significant overpayment and underpayment follow.

                    	 VARO staff did not take timely action to reduce benefits after notifying
                       the veteran of the intent to do so in September 2012. Available medical
                       evidence showed the veteran’s prostate cancer was no longer active and
                       therefore no longer supported the temporary 100 percent disability
                       evaluation. As a result, the veteran was overpaid $25,344 over a period
                       of 9 months.
                    	 A Rating Veterans Service Representative (RVSR) coded a rating
                       decision for entitlement to a special monthly compensation using an
                       incorrect payment code. As a result, the veteran was underpaid
                       $3,060 over a period of 2 years and 7 months.

                    The remaining 8 of the total 13 errors had the potential to affect veterans’
                    benefits. Neither we nor VBA could determine whether the evaluations
                    would have continued because the veterans’ claims folders did not contain
                    the medical examination reports needed to evaluate each case.

                    The types of errors we identified in the 13 cases follow.

                    	 Seven errors occurred when VARO staff delayed scheduling required VA
                       reexaminations despite receiving reminder notifications that the
                       reexaminations were due. An average of approximately 9 months
                       elapsed from the time staff scheduled or should have scheduled these
                       medical reexaminations until December 1, 2013.


VA Office of Inspector General                                                                 3
                                                                  Inspection of VARO New York, NY


                    	 Four errors occurred when VARO staff did not take timely action to
                       reduce benefits after notifying veterans of the intent to do so. Staff
                       delays averaged 5 months before resulting in reduced benefits.
                    	 One error occurred when an RVSR used the incorrect payment code for a
                       rating decision involving entitlement to special monthly compensation.
                       As a result, the veteran’s benefits were underpaid by $3,060 over a
                       period of 2 years and 7 months.
                    	 In the remaining case, an RVSR extended a veteran’s reexamination date
                       5 years and 11 months beyond the February 2013 reexamination date
                       initially established. Contrary to VBA policy, the claims folder did not
                       contain the required documentation to explain the reason for extending
                       the reexamination date.

                    Generally, processing inaccuracies resulted from a lack of adequate VARO
                    oversight to ensure staff take timely action on reminder notifications to
                    schedule VA medical reexaminations. According to VBA policy, VARO
                    staff have 30 days to act on reminder notifications by establishing an
                    appropriate workload management control to ensure reexaminations are
                    ordered. Although the VARO had a workload management plan designating
                    staff and their responsibilities for managing this work, VARO staff and
                    management stated there was no priority or adequate oversight provided to
                    ensure the work was completed. Instead, VARO staff stated they focused on
                    other priorities as directed by VA Central Office, which involved completing
                    rating-related claims, but did not include taking action on reminder
                    notifications to schedule medical reexaminations. Because of the lack of
                    priority on processing reminder notifications, delays in ordering VA medical
                    reexaminations to support continued temporary 100 percent disability
                    evaluations resulted. As such, improper recurring monthly benefits may
                    continue to be paid.

                    VARO management disagreed with our assessments in 12 of the 13 cases we
                    identified as having errors. VARO management stated it disagreed with the
                    errors because failure to take timely action is a workload issue that would not
                    result in an error from quality assurance staff. Additionally, management
                    acknowledged the VARO’s responsibility for ensuring staff take timely and
                    appropriate action on work items, but indicated workload demands had
                    impacted their ability to do so.

Follow-Up to        In our previous inspection report, Inspection of the VA Regional Office, New
Prior VA OIG        York, New York (Report No. 11-00516-240, July 28, 2011), VARO staff
Inspection
                    incorrectly processed 20 of 30 temporary 100 percent disability evaluations
                    we reviewed. The majority of the errors occurred because management did
                    not provide adequate oversight to ensure VSC staff entered suspense diaries
                    in the electronic record so they would receive reminder notifications to
                    schedule VA medical reexaminations.               We did not provide a
                    recommendation to the New York VARO for improvement in this area in


VA Office of Inspector General                                                                   4
                                                                 Inspection of VARO New York, NY


                    2011 because, in response to our national Audit of 100 Percent Disability
                    Evaluations (Report Number 09-03359-71, January 24, 2011), the Acting
                    Under Secretary for Benefits agreed and took corrective action to modify the
                    electronic system to automatically populate suspense diaries in the electronic
                    record. The suspense diaries, when mature, result in reminder notifications
                    for staff to request the required VA reexaminations.

                    During our current inspection, we did not identify any errors where staff did
                    not enter suspense diaries in the electronic record. The suspense diaries were
                    generating reminder notifications; however, staff were not taking timely
                    action to request reexaminations from VA medical facilities.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our summary report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    We determined VARO staff incorrectly processed 8 of 30 TBI claims. Five
                    of these claims affected veterans’ benefits and resulted in 148 improper
                    monthly payments totaling $85,890 from March 2009 until December 2013.
                    Generally, errors in processing TBI claims occurred because VARO
                    management did not have oversight procedures in place to ensure staff
                    complied with VBA policy as well as local policy requiring secondary
                    reviews of TBI claims. As a result, veterans received incorrect benefits
                    payments.

                    Errors in six cases occurred when RVSRs over-evaluated TBI-related
                    disabilities. One of these errors did not affect the veteran’s ongoing monthly
                    benefits, but if left uncorrected could affect future benefits in the event of
                    additional compensable disabilities. In the majority of the cases, RVSRs
                    incorrectly established separate evaluations for the veterans’ TBI and
                    post-traumatic stress disorder when medical examiners indicated they could
                    not determine which symptoms were attributable to which disability. VBA


VA Office of Inspector General                                                                  5
                                                                 Inspection of VARO New York, NY


                    policy requires staff to assign a single evaluation when medical examiners
                    cannot ascribe overlapping symptoms to either a TBI-related disability or to
                    a coexisting mental condition.

                    VARO management did not agree with the errors we identified in four of
                    these six cases. VARO managers indicated RVSRs considered the totality of
                    all medical evidence when assessing disability evaluations. Managers were
                    steadfast that RVSRs have the latitude to assign symptoms to specific
                    disabilities, even though medical examiners indicated they could not do so.
                    However, VBA policy requires the examiner to determine the etiology of
                    symptoms—not the RVSR. The RVSR is to evaluate the claim based on the
                    examiner’s determination of the etiology.

                    The two remaining errors occurred when RVSRs used insufficient VA
                    medical examination reports to evaluate TBI-related disabilities. In one of
                    the cases, a required neurological disability benefits questionnaire was
                    missing. The other case had conflicting diagnoses that needed to be resolved
                    before the examination report could be used to evaluate the veteran’s
                    disability. In both cases, and contrary to VBA policy, RVSRs did not return
                    the insufficient examination reports to the issuing clinics or health care
                    facilities for clarification, but proceeded to rate the cases using the
                    information available. VARO managers did not agree with the errors we
                    identified in these two cases and insisted the medical evidence used to
                    evaluate these claims was adequate to provide disability evaluations.
                    However, without adequate or complete medical evidence, such as the
                    required neurological disability benefits questionnaire or clear diagnoses,
                    neither VARO staff nor we can ascertain all of the residual disabilities of a
                    TBI.

                    Most of the RVSRs we interviewed were unaware of VBA’s
                    second-signature requirements. However, staff were aware of the local
                    policy that required the Special Operations team to process these claims and
                    undergo second-signature review by management.            Although VARO
                    managers stated they were aware of VBA’s second-signature review policy,
                    they were generally not complying due to staff workloads and competing
                    priorities. VARO management agreed oversight procedures were lacking to
                    ensure TBI claims received second-signature reviews for accuracy.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, New York, New
Prior VA OIG        York (Report No. 11-00516-240, July 28, 2011), we identified five of eight
Inspection
                    TBI processing errors attributed to staff using insufficient examinations to
                    make final disability determinations. Specifically, RVSRs prematurely
                    granted or continued service-connection evaluations for TBI-related residuals
                    based on insufficient VA medical examination reports. However, the OIG
                    did not make a previous recommendation based on these TBI errors. At the
                    time of that inspection, the VSC had just implemented a Quality and Training
                    Plan that included assigning one full-time employee to pre-screen VA


VA Office of Inspector General                                                                 6
                                                                    Inspection of VARO New York, NY


                    examinations to identify insufficient examinations to be returned to VA facilities
                    for correction. Because the plan was new, we could not fully assess the
                    effectiveness of VBA implementation actions.

                    During our current inspection, we identified two errors related to staff using
                    insufficient VA examinations. Although these types of errors were not
                    occurring frequently, we found that staff used insufficient examinations to
                    evaluate disability claims. Had VBA’s second-signature review policy been
                    used as intended, these errors may have been prevented.

Special             As the concept of rating disabilities evolved, VBA realized that for certain
Monthly             types of disabilities, the basic rate of compensation was not sufficient for the
Compensation        level of disability present. Therefore, VBA established SMC to recognize
and Ancillary       the severity of certain disabilities or combinations of disabilities by adding
Benefits
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues such as the loss of an eye or limb, or the
                    need to rely on others for daily life activities like bathing or eating.
                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist:

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under chapter 35, title 38, United
                       States Code
                    	 Specially Adapted Housing benefits
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowances

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We examined whether VARO
                    staff accurately processed entitlement to SMC and ancillary benefits



VA Office of Inspector General                                                                      7
                                                                 Inspection of VARO New York, NY


                    associated with anatomical loss or loss of use of two or more extremities, or
                    bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 6 of 30 veterans’ claims involving SMC
                    and related ancillary benefits—all of the errors affected veterans’ benefits
                    and resulted in 86 improper monthly payments totaling $59,901 from
                    December 2010 until December 2013. The majority of the errors occurred
                    because oversight measures were lacking to ensure complex, higher-level
                    SMC claims were evaluated by staff assigned to the Special Operations team,
                    as required by local policy. VARO staff told us that generally, RVSRs are
                    required to self-identify these higher-level SMC claims for routing to the
                    team for processing. Additionally, VARO staff indicated some errors might
                    occur because they were not familiar with higher-level SMC cases, which
                    typically are rare. VARO management agreed with our assessments in the
                    six cases we identified as having errors.

                    Summaries related to errors in processing SMC and ancillary benefits follow.

                    	 An RVSR incorrectly established SMC in one claim based on a need for
                       aid and attendance with the activities of daily living. However, the
                       medical evidence did not indicate the veteran’s disabilities met the
                       requirements for this level of care. As a result, the veteran was overpaid
                       approximately $36,480 over a period of 1 year.
                    	 An RVSR did not use the correct date to grant SMC to a veteran with
                       diabetes who underwent a series of amputations that eventually resulted
                       in anatomical loss of both feet. The RVSR properly increased the
                       evaluation of the veteran’s diabetes, but did not grant an increased SMC
                       level for diabetic complications. The RVSR also did not provide a
                       separate evaluation for diabetic kidney disease. As a result, the veteran
                       was underpaid $8,489 over a period of 3 years.
                    	 In one case, an RVSR used outdated VBA policy and over-evaluated a
                       veteran’s combat injuries, which resulted in erroneously awarding a
                       higher level of SMC. As a result, the veteran was overpaid $5,550 over a
                       period of 1 year and 8 months.
                    	 Another error occurred when an RVSR used an incorrect date to establish
                       benefits. In this case, the RVSR used the date of a VA medical
                       examination rather than the date the claim was received by VA. As a
                       result, this veteran was underpaid $5,403 over a period of 3 months.
                    	 An RVSR established SMC for a veteran’s chronic fatigue syndrome, but
                       did not assign the correct level of SMC as required when a veteran has
                       another disability separately evaluated as 50 percent disabling.
                       Consequently, VA underpaid the veteran $2,117 over a period of 1 year
                       and 8 months.




VA Office of Inspector General                                                                 8
                                                                 Inspection of VARO New York, NY


                    	 An RVSR established a higher level of SMC than required for a veteran
                       who no longer had the use of his hands. However, the RVSR did not
                       increase SMC for other related disabilities, as required. As a result, the
                       veteran was underpaid $1,862 over a period of 7 months.

                    Operating under VBA’s business model involving segmented lanes, the New
                    York VARO delegated responsibility for evaluating claims with higher levels
                    of SMC to staff assigned to the Special Operations team. Staff assigned to
                    the Special Operations team process complex or sensitive claims, such as
                    those involving high-level SMC, military sexual trauma, TBI, or multiple
                    sclerosis. However, the VBA business model related to segmented lanes
                    lacked specific guidance regarding the lane assignments for routing and
                    processing SMC cases.

                    Staff other than specialized team members processed four of the six SMC
                    cases that included errors while staff assigned to the Special Operations team
                    processed two of the six cases with processing errors. Two of the cases with
                    errors also received a secondary review by the VARO’s Quality Review
                    team; however, the reviewers also did not identify the errors.

                    Although local policy delegated the evaluation of SMC claims to the Special
                    Operations team, VARO staff told us the Special Operations team does not
                    always process these cases. Our inspection results showed staff outside of
                    the Special Operations team processed four of the six SMC cases with errors.
                    Additionally, two of the six cases with errors received a secondary review by
                    the VARO’s Quality Review team; however, that team also did not identify
                    the errors. Generally, when a veteran specifically claimed a SMC benefit,
                    VARO staff routed the claims to the Special Operations team to complete.
                    However, when the SMC benefit was inferred (conveyed indirectly based on
                    the severity of disabilities), other claims processing staff completed those
                    cases as part of their regular workload.

                    Recommendations

                    1.	 We recommend the New York VA Regional Office Director implement a
                        plan to ensure timely and appropriate action on reminder notifications for
                        medical reexaminations.
                    2.	 We recommend the New York VA Regional Office Director develop and
                        implement a plan to review for accuracy the 320 temporary 100 percent
                        disability evaluations remaining from our inspection universe and take
                        appropriate actions.

                    3.	 We recommend the New York VA Regional Office Director develop and
                        implement a plan to ensure staff comply with VBA and local
                        second-signature requirements for traumatic brain injury claims.



VA Office of Inspector General                                                                  9
                                                                Inspection of VARO New York, NY


                    4.	 We recommend that the New York VA Regional Office Director
                        implement a plan to ensure staff comply with VARO policy requiring
                        evaluation of higher-level special monthly compensation claims by staff
                        assigned to the Special Operations team.

Management          The VARO Director concurred with our recommendations. In May 2014,
Comments            the Director designated staff responsible for managing and processing
                    reminder notifications related to medical reexaminations.            As of
                    May 30, 2014, the VARO reported it no longer had a backlog of unprocessed
                    reminder notifications. Management also completed its review of the
                    320 temporary 100 percent disability claims remaining from our inspection
                    universe. VARO management created a log to track all TBI rating decisions
                    generated by VARO staff to ensure the cases received the required secondary
                    reviews. Additionally, the Quality Review team tailored recurring TBI
                    training to address errors identified from its reviews of TBI claims
                    processing. Further, the VARO Director mandated all higher levels of
                    special monthly compensation claims to have second-signature reviews,
                    regardless of which team processes the claims.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                              10
                                                                 Inspection of VARO New York, NY


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and to propose corrective actions.
                    VARO management must publish annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

                    Generally, VARO management ensured SAOs were submitted by the
                    required due date, contained thorough analyses, used appropriate data, and
                    included recommendations for improvements where appropriate. Of the
                    11 mandatory SAOs, we found staff delayed submitting the Internal Controls
                    SAO by 51 days. VARO management did not concur with our assessments
                    and indicated an extension for the SAO had been given; however,
                    management was unable to demonstrate a new due date for the SAO.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, New York,
Prior VA OIG        New York (Report No. 11-00516-240, July 28, 2011), we reported that four
Inspection
                    of the mandatory SAOs were late or incomplete. In response to our
                    recommendation, the VARO Director implemented a plan requiring VSC
                    staff to submit in writing all requests to complete SAOs past their scheduled
                    due dates and created a compliance checklist to ensure staff complete all
                    required sections of the SAOs.

                    During our 2014 inspection, we found that only one SAO was untimely.
                    Because we found no systemic problems with SAOs during our
                    January 2014 inspection, we concluded the VARO’s corrective actions in
                    response to our 2011 recommendation were generally adequate. As such, we
                    made no recommendation for improvement in this area.

Benefit             VBA policy provides for the payment of compensation to veterans for
Reductions          conditions they incurred or aggravated during military service. The amount
                    of monthly compensation to which a veteran is entitled may change because
                    his or her service-connected disability may improve. Improper payments
                    associated with benefit reductions generally occur when beneficiaries receive
                    payments they are not entitled to because VAROs do not take the actions
                    required to ensure veterans receive the correct payments for their levels of
                    disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in a reduction or discontinuance of current compensation payments,


VA Office of Inspector General                                                                11
                                                                 Inspection of VARO New York, NY


                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs will make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring a reduction in benefits. The new policy no
                    longer requires VARO staff to take “immediate action” to process these
                    reductions. In lieu of merely removing this vague standard, VBA should
                    have provided clearer guidance on prioritizing this work to ensure sound
                    financial stewardship of these monetary benefits.

Finding 2 	         VARO Lacked Oversight To Ensure Immediate Action On Benefit
                    Reductions

                    VARO staff delayed 14 of 30 claims that required rating decisions to reduce
                    or discontinue benefits. This occurred because of a lack of VARO
                    management oversight to ensure staff processed the reductions. As a result,
                    VA made 121 improper payments to 14 veterans from April 2009 to
                    December 2013. As result of delays averaging 9 months, VA continued to
                    pay recurring monthly benefits that totaled approximately $170,860 in
                    improper payments.

                    The most significant overpayment and delay occurred when staff proposed
                    reducing a veteran’s benefits after he advised that he had returned to the
                    workforce. While VARO staff proposed the action in April 2009, the final
                    action to discontinue benefits did not occur until September 2013—4 years
                    and 8 months beyond the date the reduction should have occurred. As a
                    result, the veteran received approximately $82,480 in improper payments.

                    Generally, delays in processing benefits reduction cases occurred because
                    VARO managers did not provide oversight to ensure staff processed these
                    cases timely. Although the VARO had a workload management plan that
                    designated staff and their responsibilities for processing this work, no
                    priority or management oversight was provided to ensure the work was
                    completed. Instead, the VARO focused on other priorities, such as working
                    on the VARO’s oldest rating-related claims, as directed by the VA Central
                    Office.

                    Although VSC management acknowledged the VARO’s responsibility for
                    ensuring timely and appropriate action on rating decisions involving benefits
                    reduction, the VARO disagreed with our assessments in 13 of the 14 cases
                    we identified as having processing delays. Further, management indicated


VA Office of Inspector General                                                                12
                                                                   Inspection of VARO New York, NY


                    that failure to take timely action to process these claims would not result in
                    an error by quality assurance staff.

                    In response to the VARO’s non-concurrences with the errors we identified
                    during the inspection, we reviewed the 13 cases once again but continued to
                    find the VARO non-compliant with VBA policy. We reminded VARO
                    management that VBA policy requires action to reduce benefits after the due
                    process period has ended. We pointed out that the VARO’s own workload
                    management plan required staff to take immediate action to resolve due
                    process actions. Further, we reemphasized that our inspections are strictly
                    compliance reviews, designed to identify as errors any conditions where the
                    VAROs do not adhere to VBA policy. We concluded that providing
                    oversight of this high-risk area of benefit reductions to ensure sound
                    financial stewardship and minimize improper benefits payments is clearly
                    necessary and within the OIG’s purview.

                    Recommendation

                    5.	 We recommend the New York VA Regional Office Director implement a
                        plan to ensure claims processing staff prioritize actions related to benefit
                        reductions to minimize improper payments to veterans.

Management          The VARO Director concurred with our recommendation and designated
Comments            staff to monitor and prioritize cases related to adverse actions, including
                    benefits reductions. On a weekly basis, VARO staff will prioritize cases that
                    are ready for decisions, pending awards, pending authorization actions, and
                    cases with expiring suspense dates.
OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We will follow up on management’s actions during future inspections.




VA Office of Inspector General                                                                   13
                                                                 Inspection of VARO New York, NY


Appendix A          VARO Profile and Scope of Inspection

Organization        The New York VARO administers a variety of services and benefits,
                    including compensation and pension benefits; vocational rehabilitation and
                    employment assistance; benefits counseling; and outreach to homeless,
                    elderly, minority, and women veterans.

Resources           As of December 2013, VBA reported the New York VARO had a staffing
                    level of 191 full-time employees. Of this total, the VSC had 156 employees
                    assigned.

Workload            As of December 2013, the VARO reported 10,514 pending compensation
                    claims. The average number of days pending for claims was 182 days,
                    67 days more than the national target of 115 days.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, Wyoming, that process
Methodology         disability claims and provide a range of service to veterans. We evaluated
                    the New York VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 30 (9 percent) of 350 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    November 5, 2013. This is generally the longest period a temporary
                    100 percent disability evaluation may be assigned without review, according
                    to VBA policy. We provided VARO management with 320 claims
                    remaining from our universe of 350 for its review. We reviewed
                    30 (48 percent) of 63 disability claims related to TBI that the VARO
                    completed from July through September 2013. We also examined
                    30 (42 percent) of 71 veterans’ claims involving entitlement to SMC and
                    ancillary benefits completed by VARO staff from October 2012 through
                    September 2013.

                    Prior to VBA consolidating Fiduciary Activities nationally, each VARO was
                    required to complete 12 SAOs. However, since the Fiduciary consolidation,
                    VAROs are now only required to complete 11 SAOs. Therefore, we
                    reviewed 11 SAOs related to VARO operations. Additionally, we looked at
                    30 (11 percent) of 276 completed claims that proposed reductions in benefits
                    from July through September 2013.


VA Office of Inspector General                                                                14
                                                                 Inspection of VARO New York, NY


                    Where we identify potential procedural inaccuracies, we provided this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the 120 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI claims, SMC and ancillary benefits, and completed claims involving
                    benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed in conjunction with our
                    inspection of the VARO did not disclose any problems with data reliability.

                    As reported by VBA’s Systematic Technical Accuracy Review program as
                    of December 2013, the overall accuracy of the New York VARO’s
                    compensation rating-related decisions was 88.6 percent—5.4 percentage
                    points below VBA’s FY 2014 target of 94 percent. We did not test the
                    reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                 15
                                                                              Inspection of VARO New York, NY


Appendix B          Inspection Summary

                    Tables 2 reflects the operational activities inspected, applicable criteria, and
                    whether or not we had reasonable assurance of VARO compliance.

                        Table 2. New York VARO Inspection Summary
   Operational                                   Criteria                                  Reasonable
    Activities                                                                             Assurance of
    Inspected                                                                              Compliance
    Disability
     Claims
    Processing
                     Determine whether VARO staff properly reviewed temporary
 Temporary
                     100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
 100 Percent
 Disability
                     3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii,                    No
                     Chapter 2, Section J) (M21-1MR Part III, Subpart iv, Chapter 3,
 Evaluations
                     Section C.17.e)
                     Determine whether VARO staff properly processed claims for
 Traumatic Brain
 Injury Claims
                     service connection for all disabilities related to in-service TBI.         No
                     (FL 08-34 and 08-36) (Training Letter 09-01)
 Special Monthly     Determine whether VARO staff properly processed SMC and
 Compensation        correctly granted entitlement to ancillary benefits. (38 CFR
 and Ancillary       3.350, 3.352, 3.807, 3.808, 3.809, 3.809a, 4.63, and 4.64)
                                                                                                No
 Benefits             (M21-1MR IV.ii.2.H and I)
 Management
 Controls
 Systematic          Determine whether VARO staff properly performed formal
 Analysis of         analyses of their operations through completion of SAOs.                   Yes
 Operations          (M21-4, Chapter 5)
                     Determine whether VARO staff timely and accurately processed
                     disability evaluation reductions or terminations. (38 CFR
 Benefit             3.103(b)(2), 38 CFR 3.105(e), 38 CFR 3.501, M21-
 Reductions          1MR.IV.ii.3.A.3.e, M21-1MR.I.2.B.7.a, M21-1MR.I.2.C,
                                                                                                No
                     M21-1MR.I.ii.2.f, M21-4, Chapter 2.05(f)(4), Compensation &
                     Pension Service Bulletin October, 2010)
 Source: VA OIG
 CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                            16
                                                                              Inspection of VARO New York, NY


Appendix C              VARO Director’s Comments


                 Department of
                 Veterans Affairs
                                                            Memorandum
         Date:        May 27, 2014

         From:        Director, VA Regional Office New York, New York (306/00)

         Subj:        Inspection of the VA Regional Office, New York, New York

           To:        Assistant Inspector General for Audits and Evaluations (52)



                 1.   The New York VARO’s comments are attached on the OIG Draft Report: Inspection
                      of the VA Regional Office, New York, New York

                 2.   Please refer questions to VSCM Joe Corretjer at 212-807-3421.



                       (original signed by:)

                      Sue Malley, Director 

                      New York Regional Office 





                      Enclosure




VA Office of Inspector General                                                                            17
                                                                       Inspection of VARO New York, NY


                                                                                                Enclosure

OIG Recommendations

Recommendation 1: We recommend the New York VA Regional Office Director implement a plan to
ensure timely and appropriate action on reminder notifications for medical reexaminations.

New York RO Response: Concur

According New York RO’s Workload Management Plan, the Non-Rating Team is responsible for running
all 800 work items, to include future examinations, ensuring these are processed in a timely manner. The
supervisor of the Non-Rating team runs the list of “new” work items daily to give the staff the best chance
to have the end products established timely and to not have a negative impact on our control time.
Effective May 8, 2014, new procedures were put in place to reduce hand offs between teams and to
streamline this process. The VOR work items report is now sent from the Non-Rating team supervisor to
the two Express teams to be processed. Between September 2013 and February 2014, 650 backlogged
work items were cleared, with an additional average of 80 to 90 work items per month. As of May 30,
2014, the New York Regional Office does not have any work items pending.

While the NY VARO does not dispute this workload was historically out of line, as were a number of other
areas due to our backlog. The steps we have taken to address this issue have been successful and we
request this item be considered closed.

Target Completion Date: Completed

Recommendation 2: We recommend the New York VA Regional Office Director develop and implement
a plan to review for accuracy the 320 temporary 100 percent disability evaluations remaining from our
inspection universe and take appropriate actions.

New York RO Response: Concur

New York Regional Office has reviewed 100 percent of the temporary 100 percent disability evaluations
identified. New York will continue to get a new listing of temporary 100 reviews monthly and will work
them as they are received.

The Target Completion Date: Completed

Recommendation 3: We recommend the New York VA Regional Office Director develop and implement
a plan to ensure staff comply with VBA and local second-signature requirements for traumatic brain injury
claims.

New York RO Response: Concur

The New York Regional Office has a local policy, where all cases require review, which exceed the
national requirements requiring a second signature on each TBI case an RVSR evaluates until the RVSR
demonstrates 90 percent accuracy in TBI claims processing. In the New York Regional Office, a second
signature is required on all TBI cases. A log has been established on an electronic drive showing each
TBI rating generated, the RVSR who generated the rating, the result of each review and the reviewer.
The log tracks errors found and ensures all TBI ratings are reviewed. The reviewers come from a pool of
coaches, DROs and staff used to conduct local station quality reviews. QRT training is tailored to include
recurring TBI errors found.

Target Completion Date: June 20, 2014




VA Office of Inspector General                                                                          18
                                                                       Inspection of VARO New York, NY


Recommendation 4: We recommend that the New York VA Regional Office Director implement a plan to
ensure staff comply with VARO policy requiring evaluation of higher-level special monthly compensation
claims by staff assigned to the Special Operations team.

New York RO Response: Concur

All special monthly compensation claims involving a higher level of special monthly compensation are
handled by the Special Operations team or Express team addressing FDC claims.

Claims for special monthly compensation are assigned to the Special Operations team and Express
teams as mandated by VBA’s business model involving segmented lanes. However, there are occasions
when a claim may be being handled on a Core team and the issue of special monthly compensation,
although not claimed, in fact becomes inferred based on the level of disability. In those instances, since
the RVSR has spent time reviewing the evidence and is familiar with the facts, in the interest of not
wasting valuable rating resources, the claim has been rated on the Core team

The NYRO established a local policy mandating all rating decisions establishing entitlement to special
monthly compensation (l) or higher be reviewed and have a second signature. In addition, the claims
with special monthly compensation (l) or higher that are rated on a Core team will be referred to the
Special Operations team or QRT for second signature

Target Completion Date: Completed

Recommendation 5: We recommend the New York VA Regional Office Director implement a plan to
ensure claims processing staff prioritize actions related to benefit reductions to minimize improper
payments to veterans.

New York Response: Concur

The New York Regional Office is currently operating in concert with the national workload strategy.
According to the Workload Management Plan, the Non Rating Team is responsible for processing all 600
EPs. The due process cases that require rating decisions are routed to the respective Express, Core or
Special Operations Lane for processing to ensure better workload management. The current process is
that as the respective lanes promulgate rating decisions on any cases involving proposals on potential
adverse actions, the 600 end products are established in VBMS and assigned a lane. On a weekly basis
the respective teams monitor their 600 end products, prioritizing cases in ready for decision status,
pending award, pending authorization and cases in open status (pending evidence cycle) with an expired
suspense date. Effective May 23, 2014, our office has a total of 986 600 end products pending. Of
these, approximately 379 are 600 end products involving rating actions. Of the 379 cases, 64 are ready
for decision, 10 are awaiting initial development, 26 are pending award, 6 are pending authorization and
of 273 cases in pending evidence cycle time, 113 are expired.

Target Completion: TBD. Completion will be determined based on national workload directives.




VA Office of Inspector General                                                                         19
                                                        Inspection of VARO New York, NY


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Nelvy Viguera Butler
                                         Robert Campbell
                                         Kyle Flannery
                                         Lee Giesbrecht
                                         Lisa Van Haeren
                                         Ambreen Husain
                                         Suzanne Love
                                         Michelle Santos-Rodriguez




VA Office of Inspector General                                                       20
                                                               Inspection of VARO New York, NY


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Eastern Area Director
                    VA Regional Office New York Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Kirsten Gillibrand, Charles Schumer
                    U.S. House of Representatives: Tim Bishop, Yvette Clark, Joe Crowley,
                     Eliot Engel, Mike Grimm, Steve Israel, Hakeem Jeffries, Peter King, Nita
                     Lowery, Carolyn Maloney, Sean Patrick Maloney, Carolyn McCarthy,
                     Gregory Meeks, Grace Meng, Jerrold Nadler, Charles Rangel, Jose
                     Serrano, Nydia Velazquez




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              21
